Nos. 21-5592 & 21A33
___________________________________
IN THE SUPREME COURT OF THE UNITED STATES
___________________________________
This is a capital case.
JOHN RAMIREZ,
Mr. Ramirez is set
for execution
Petitioner,
September 8, 2021,
6 p.m. CT.
v.
BRYAN COLLIER, Executive Director, Texas Department of Criminal
Justice; BOBBY LUMPKIN, Director, Texas Department of Criminal
Justice, Correctional Institutions Division; DENNIS CROWLEY,
Warden, TDCJ, Huntsville, TX,
Respondents,
___________________________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
___________________________________
REPLY TO RESPONDENT’S OPPOSITION TO APPLICATION
FOR STAY OF EXECUTION
Seth Kretzer
LAW OFFICES OF SETH KRETZER
Member, Supreme Court Bar
9119 South Gessner; Suite 105
Houston, TX 77054
(713) 775-3050 (direct)
(713) 929-2019 (fax)
seth@kretzerfirm.com (email)
APPOINTED ATTORNEY FOR JOHN RAMIREZ

Comes now, John Ramirez, and files this Reply to the Response in
opposition to his application to stay execution.
INTRODUCTION
Ramirez has no idea what this sentence on page 21 of the
Response brief means: “If passing without another’s benediction and
spiritual hands upon him violates his religion, one would have expected
Ramirez to say so.” The sentence is gainsaid by the fact that a Section
1983 ‘spiritual advisor’ case was filed on August 10, 2021, that the
General Counsel of TDCJ sent a letter to Counsel on her agency’s
stationary clarifying that no pastor would be allowed to touch Ramirez’s
body as it dies- or speak any words of prayer, and that a lengthy
dissent issued in the Fifth Circuit concluding that Ramirez enjoys a
substantial likelihood of success.
Most alarming to this Court should be the Respondents’ embrace
of Ramirez’s prediction that they intend to exclude Pastor Moore
entirely. Please see pages 36-37 of the Response brief. The
implications of irreparable injury are great, obvious, and, indeed,
embraced by the Respondents just hours before this execution begins.

1

THE ‘SECOND QUESTION’ IS PREMISED ON A COUNTERFACTUAL; RAMIREZ NEVER “SHIFTED” HIS POSITION,
STRATEGICALLY OR OTHERWISE
On page I, the Respondents frame their second question as follows:
Should this Court grant a stay of execution where a plaintiff
strategically shifted his litigation posture when TDCJ
accommodated his initial religious request, even though he fails to
demonstrate a substantial likelihood of success on the merits of his
claims?
(emphasis added).
This is simply untrue. Ramirez asks this Court to observe that the
State agreed to withdraw the death warrant in 2020 right after the
section 1983 suit was filed. The issue was simply not developed factually.
In other words, the State agreed to withdraw the 2020 death
warrant before Pastor Moore was asked to give a supporting affidavit.
Had the State not agreed to withdraw the death warrant so quickly,
Ramirez would have ascertained an affidavit from Pastor Moore (who has
ministered to him since the year 2016); once the laying-on-of-hands
religious practice was explained, Ramirez would have amended his
petition. Please note that the State never filed an answer to that suit.

2

Further, one may recall that the COVID-19 pandemic was at its
highest last summer when the execution was originally set.

Pastor

Moore and the guards would have had to violate social distancing rules
then in affect to enter the execution chamber.
More specifically, Pastor Moore was not asked to give an affidavit
before the first 1983 suit was filed because it was not yet clear if the
execution could proceed under a passel of state and local laws
promulgated to mitigate the effects of COVID-19.

All of this is no

surprise to the Respondents; at the ‘Zoom’ hearing held by Judge Gavan
of the Nueces County District Court before ruling on the joint motion to
withdraw death warrant, two lawyers with the Texas Attorney General’s
Office specifically cited COVID concerns as a reason to stop the execution
they had previously requested.
One must wonder why the Respondents wish to make the “sincerity
of Ramirez’s religious beliefs” an issue when all of the reviewing federal
courts have concluded that Ramirez’s sincerity is not an issue.
unsteady ground for the State to tread.

3

This is

This Court has refused to question a penitent’s interpretation of
religious precepts. Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682, 725
(2014) (declining to question whether sincerely held beliefs “are mistaken
or insubstantial”).
Applying the Respondents’ reasoning, this Court should evaluate
Ramirez’s contentions under a different legal standard if his religious
beliefs change, or are described differently. In other words, according to
the Respondents, federal courts should compare Ramirez’s expression of
religious beliefs explained in his August 2020 section 1983 suit, to his
expressions of belief in his August 2021 section 1983 suit, and infer that
his religious beliefs are insincere or manufactured. Asking federal judges
to evaluate the sincerity of any litigant’s religious beliefs, finding recent
ones to be less persuasive than older ones, is perilous territory.

4

In other words, assume that Ramirez had not filed a 1983 suit in
the year 2020- and that the State ultimately moved to withdraw its death
warrant due to the COVID-19 concerns that became known as spring
turned to summer of last year. Or, assume that Ramirez had converted
to Judaism in the past year and was now asking for a rabbi to minister
to him at tonight’s execution. In either alternative scenario, the entire
predicate of the Respondents’ second question would be extirpated.
RAMIREZ AMENDED HIS PETITION; HE NEVER ADDED ANY
“NEW CLAIMS”
Page 7 of the Response brief contains a factual inaccuracy.
Respondents write, “Ramirez filed a reply, adding his new, unexhausted
challenges to TDCJ’s verbal restrictions as support for his motion.”
Untrue. At all times since suit was filed on August 10, 2021, the claims
brought arose under the First Amendment’s Free Exercise Clause and
the RLUIPA.
As best as Ramirez understands the point the Respondents are
trying to make through their contention that Ramirez tried to
sandbag them with a “new claim,” is that they dislike that their General
Counsel’s letter makes clear the absolute prohibition on vocalized prayer

5

that was opaque until so clarified by Ms. Worman.

While it is

understandable why the Respondents would want to put distance
between themselves and this missive on the official agency letterhead,
this was obviously an admission by party opponent. At the time her letter
was written, sent, and received by Counsel, General Counsel Worman
was acting as agent for Respondents in the scope of her agency and the
civil rights litigation had already begun in federal court.
Respondents’ problems regarding their claim of sandbagging go
deeper. First, the district court judge never delineated what evidence
was to be considered in his ruling on the motion to stay.

Moreover, a

plaintiff bears the burden at the injunction stage to produce evidence in
the form of affidavits or declarations. Sierra Club, Lone Star Chapter v.
FDIC, 992 F.2d 545, 551 (5th Cir. 1993).
Ramirez started out with the notarized affidavit of Pastor Moore;
Ramirez supplemented with the statement from General Counsel on
TDCJ’s official letterhead as soon as the letter arrived. If Respondents
wanted to strike the statement from their own General Counsel as
competent evidence, they had many days to do so before the trial court
ruled. They did not.
6

ABUSE OF DISCRETION
On page 10, Respondents complain that Ramirez only mentioned
“abuse of discretion” one time:
Aside from the single mention included in the opinion Ramirez
copies and pastes into his brief, he does not argue that the lower
courts abused their discretion in denying a stay.
With all due respect, Ramirez does not know how many times he is
supposed to write the words “abuse of discretion” in his application to
meet their satisfaction.
To be clear, Ramirez’s position is that both the federal district court,
as well as two judges in the Fifth Circuit who ruled against him, abused
their discretion in their ultimate conclusion (as to both RLUIPA and the
First Amendment) because Supreme Court doctrine compels a different
conclusion.
[T]he Eleventh Circuit was right to bar Alabama from executing
Smith without his pastor by his side. The law guarantees Smith
the right to practice his faith free from unnecessary interference,
including at the moment the State puts him to death.
Dunn v. Smith, 141 S. Ct. 725, 726 (2021) (emphasis added).

7

In the Respondents’ conception, these three rather straightforward
words reflect the authoring Justice’s maladroit use of vernacular, slang,
or some other uninformed “figure of speech.” More specifically, on page
27, the Response brief calls this term “figurative language.” By contrast,
Ramirez contends that these words mean what they say; for a minister
to be “by [Ramirez’s] side]” ipso facto such minister cannot be standing
supine on the other side of the room with his tongue tied.
NO PROCEDURAL DEFAULT CONCERING THE
VOCALIZATION OF PRAYER ISSUE
Presumably because they cannot defend its rationale, the
Respondents dedicate pages 12-13 and 23-24 arguing that the
vocalization of prayer issue was somehow defaulted in this litigation.
The most glaring problem is that both the district court order and
the appellate opinion that they are asking this Court to affirm
specifically cognized the vocalization of prayer issue. The District Court
was clear:
The instant case is one of first impression as to the specific
question of whether a person set to be executed has the right,
under RLUIPA and the Free Exercise Clause of the First
Amendment, to have an approved spiritual advisor lay hands
upon the person’s body and vocalize prayers during the
execution.
8

A.18 (emphasis added).
Judge Owens wrote “vocalize” at A4.
And Judge Dennis’ dissent characterized Ramirez’s argument as
follows:
Ramirez contends that audible prayer and physical touch are
components of his religious faith and that the policy prohibiting him
from exercising these practices violates his rights.
A7 (emphasis added).
In other words, it is a little hard to see how Ramirez defaulted this
issue when every court to consider the issue [both the opinion/order that
they like - and the one they do not like] has considered vocalized prayers
to be an essential part of the respective holdings.
“PAST MONTH” MEANS THE FILING DATE OF THE 1983 SUIT
On page 23, Respondents take great umbrage at the term “the last
month” in Ramirez’s cert petition:
He asserts that ‘over the past month’ no one from TDCJ has
explained how Dr. Moore’s audible speaking might interfere with
the execution.
Perhaps Ramirez’s opening brief was not clear; the 1983 suit was
filed on August 10, 2021. This was 28 days ago; “the last month” refers
to the filing date of the 1983 suit.

9

Respondents go on to protest, “To be clear, one month ago,
Ramirez had not even asked TDCJ if his pastor could pray aloud during
his execution.” One is left to wonder, if General Counsel’s letter could so
unambiguously declare the TDCJ policy of no vocalized prayer- and if
the mootness policy is impacted with as little constitutional problem as
Respondents so adamantly maintain- why the repeated contentions of
waiver that neither of the reviewing lower courts perceived?
RESPONDENTS VERY MUCH DO NOT LIKE RAMIREZ’S
PROPOSED LESS RESTRICTIVE ALTERNATIVES
The Response brief is not exactly consistent when it comes to the
proffered less restrictive alternatives. On page 27, Respondents explain
that “To show that the BOP’s and TDCJ’s policies are not the least
restrictive means to further their security interests, Ramirez needs to
identify, at the very least, a policy less restrictive.”
Agreed, and Ramirez offered six less restrictive alternatives; in
descending order, this is limned as Pastor Moore singing prayers, or
saying prayers, or whispering prayers.

10

But the Respondents very much do not like these alternatives.
“Ramirez’s list of six violations to TDCJ’s verbal restriction does not
help him establish the likely success of his claim, as required for the
stay he seeks.” [Response Brief, at 24].
RESPONDENTS’ BASE SOPHISTRY IS FOUND ON PAGE 24
The most honest statement in the Response brief is found on page
24:
[H]e asks this Court to intervene based on a list, in which he
proposes six different ways to verbally disrupt the execution
process.
(Emphasis added).
As the highlighted language makes clear, Respondents truly
believe that any vocalized prayer is inherently disruptive to the
execution process. The problem is that RLUIPA does not allow the
State to leap to this conclusion absent some showing [there is simply
none in this record] that vocalizations would author any sort of risk to
the execution team or the execution process.

11

CONCLUSION
The Respondents are honest in saying that they want the execution
chamber to be a godless vacuum. That was their most recent policy
amongst the four they have promulgated in the last two years.
But the First Amendment and RLUIPA do not allow the prohibition
on religious exercise vel non. Under the Respondents’ conception, Pastor
Moore is to be no different from a potted plant; they could place a potted
plant in the corner of the room with a sign taped on the pot entitled
“Pastor Moore.”
If this execution is not stayed, Ramirez will be deprived of his
religious liberty during the execution, even if the Respondents do not
make good on their repeated threat to carry Dr. Moore out sometime
before the execution concludes.
DATED this 8th day of September, 2021.
Respectfully submitted,
/s/ Seth Kretzer
Seth Kretzer
LAW OFFICE OF SETH KRETZER
Member, Supreme Court Bar
9119 South Gessner; Suite 105
Houston, TX 77054
seth@kretzerfirm.com
[Tel.] (713) 775-3050
12

[Fax] (713) 929-2019
APPOINTED ATTORNEY FOR RAMIREZ

13

